(fii

g>$

No.

© r ^ n ©, y n. y
IN THE

IML

'A

y© i> ©y Cu L

SUPREME COURT OF THE UNITED STATES
UjArf~&d, -

.X^aJa/A

^L^Ah\^>£)jJ

FILED
JUL 1 8 2020

— PETITIONER

(Your Name)

OFFICE OF THE CLERK
SUPREME COURT. U,S.

VS.

eiL i,eT— RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO

U3 £ouatT ftp A^eAct> TitiJTH- diK^urr'
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

c>/J

6U<J A
(Your Name)
j>7 &.

(^A-ffrUt *jA

(Address)

Az~ ZZXbk
(City, State, Zip Code)

(Phone Number)

A<jz-j

QUESTIONS PRESENTED
1. CAN MARY ANN VALDEZ, WHO HAS AT LEAST 30 YEARS
EXPERIENCE IN ESCROW/TITLE INSURANCE, WAS EMPLOYED BY
SECURITY TITLE/FIDELITY NATIONAL TITLE VIOLATE HR POLICIES
INCORPORATED IN THE HR MANUAL AND VIOLATE THE
AMERICAN DISABILITY ACT?
2. CAN EEOC PHOENIX LOCATION IGNORE A CLAIM AND NEVER
CONTACT THE EMPLOYER?
3. CAN EEOC PHOENIX REOPEN CLAIM SINCE IT WAS NEVER
PROCESSED?
4. CAN ATTORNEY JAMEY THOMPSON, ON BEHALF OF THE
DEFENDANTS IGNORE AND NOT ANSWER MOTIONS FILED?
5. CAN ATTORNEY JAMEY THOMPSON, ON BEHALF OF THE
DEFENDANTS CHECK THE PLAINTIFF’S HR RECORDS WITHOUT
PROPER AUTHORIZATION FROM PLAINTIFF?
6. CAN A SEPARATE CASE BE CREATED AGAINST ATTORNEY
JAMEY THOMPSON FOR SUPPORTING THE DEFENDANT'S
VIOLATION OF THE AMERICAN DISABILITY ACT AND VIOLATION
OF HR POLICY AND PROCEDURES?
7. CAN THERE BE A VIOLATION SET FORTH AGAINST ATTORNEY
JAMEY THOMPSON FOR INTERFERING WITH THE COURT CASES
WITHOUT CAUSE?
8. CAN AN ADDITIONAL CASE BE CREATED FOR
DISCRIMINATION CAUSED BY MARY ANN VALDEZ AT THE SAME

TIME SHE VIOLATED THE AMERICAN DISABILITY ACT?

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page.
[yl^All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
Ph

/V/J- ^6^(c/<gjc_ft-*ity ~T'

RELATED CASES

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ i^For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
[ Y'reported at 0 rf & £> t Q i S. ^ C^ti uA‘
P
5 or,

to

[ ] has been designated for publication but is not yet reported; or,
[i^is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
reported at \5t> l>i<r7fLiQjT (Lx>OAr q£ A
; or,

to

[ ] has been designated for publication but is not yet reported; or,
M is unpublished.
[w'T'For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix____ to the petition and is
’hjsT/litX
^
[ Yreported at
; or,
[ ] has been designated for publication but is not yet reported; or,
|Y\ is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

JURISDICTION
[ vf^For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was
6_____________
[ *^No petition for rehearing was timely filed in my case.
M^A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
--------------------------------- , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

\J / 6 UflrT/ c aJ

bf

A^r
^ C'&lft/

Vi o

o

07'

STATEMENT OF THE CASE
MARY ANN VALDEZ, EMPLOYED AT THE TIME BY SECURITY
TITLE/FIDELITY NATIONAL TITLE, WITH MORE THAN 30 YEARS
OF EXPERIENCE USED HER POSITION AND CAUSED A VIOLATION
OF THE AMERICAN DISABILITY ACT
MARY ANN VALDEZ CAUSED DISCRIMINATION
MARY ANN VALDEZ VIOLATED THE HR POLICIES AND
PROCEDURES OF FIDELITY NATIONAL TITLE
ATTORNEY JAMEY THOMPSON UPHELD THESE VIOLATIONS AND
VIOLATED PRIVACY ACT TOWARD PLAINTIFF

REASON FOR GRANTING THE PETITION
THE EEOC PHOENIX FAILED TO PROCESS THE EEOC CLAIM
AGAINST DEFENDANTS
INAPPROPRIATE ACTIONS AND MOTIONS CAUSED BY ATTORNEY
JAMEY THOMPSON
VIOLATION OF THE AMERICAN DISABILITY ACT CAUSED BY
MARY ANN VALDEZ, ET AL
VIOLATION OF DISCRIMINATION CAUSED BY MARY ANN
VALDEZ, ET AL
VIOLATION CAUSED BY ATTORNEY JAMEY THOMPSON WHEH
ATTORNEY CHECKED HR RECORDS OF PLAINTIFF WITHOUT
AUTHORIZATION
AS A RESULT OF ALL OF THESE VIOLATIONS PLAINTIFF SUFFERS
DEPRESSION, FINANCIAL HARDSHIPS AND ONGOING MEDICAL
ISSUES

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

9

